      Department of Homeland Security



            Information Technology Management
               Letter for FY 2011 Department of
                 Homeland Security Financial
                         Statement Audit




OIG-12-81                                         May 2012
                                                                                  Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                                     Washington, DC 20528




                                          May 3, 2012

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the Department.

This report presents the information technology (IT) management letter for the DHS financial
statement audit as of September 30, 2011. It contains observations and recommendations related
to information technology internal control weaknesses that were summarized in the Independent
Auditors Report dated November 11, 2011, and represents the separate restricted distribution
report mentioned in that report. The independent accounting firm KPMG LLP (KPMG)
performed the audit of the DHS’ FY 2011 financial statement audit and prepared this IT
management letter. KPMG is responsible for the attached IT management letter and the
conclusions expressed in it. We do not express opinions on DHS’ financial statements or
internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                         Frank Deffer
                                         Assistant Inspector General
                                         Office of Information Technology Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006


March 27, 2012

Acting Inspector General
U.S. Department of Homeland Security

Chief Information Officer
U.S. Department of Homeland Security

Chief Financial Officer
U.S. Department of Homeland Security
We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended.
In connection with our audit, we also considered DHS’ compliance with certain provisions of
applicable laws, regulations, contracts, and grant agreements that could have a direct and material
effect on the FY 2011 financial statements.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, dated November 11, 2011, included internal control
deficiencies identified during our audit, that individually, or in aggregate, represented a material
weakness or a significant deficiency. This letter represents the separate limited distribution report
mentioned in that report.
During our audit engagement, we noted certain matters in the areas of access controls, configuration
management, security management, contingency planning, and segregation of duties with respect to
DHS’ financial systems general Information Technology (IT) controls which we believe contribute
to a DHS-level significant deficiency that is considered a material weakness in IT controls and
financial system functionality. We also noted that in some cases, financial system functionality is
inhibiting DHS’ ability to implement and maintain internal controls, notably IT applications
controls supporting financial data processing and reporting. These matters are described in the
General IT Control Findings and Recommendations section of this letter.
Although not considered to be a material weakness, we also noted certain other items during our
audit engagement which we would like to bring to your attention. These matters are also described
in the General IT Control Findings and Recommendations section of this letter.
The material weakness and other comments described herein have been discussed with the
appropriate members of management, or communicated through a Notice of Finding and


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Recommendation (NFR), and are intended For Official Use Only. We aim to use our knowledge of
DHS’ organization gained during our audit engagement to make comments and suggestions that we
hope will be useful to you. We have not considered internal control since the date of our
Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key DHS financial systems within the scope of the FY 2011 DHS financial statement
audit engagement in Appendix A; a description of each internal control finding in Appendix B; and
the current status of the prior year NFRs in Appendix C. Our comments related to financial
management and reporting internal controls (comments not related to IT) have been presented in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer.

This report is intended solely for the information and use of DHS management, DHS Office of
Inspector General (OIG), U.S. Office of Management and Budget (OMB), U.S. Government
Accountability Office (GAO), and the U.S. Congress, and is not intended to be and should not be
used by anyone other than these specified parties.


Very truly yours,
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011

                INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                      TABLE OF CONTENTS

                                                                                                Page

Objective, Scope and Approach	                                                                   1


Summary of Findings and Recommendation 	                                                         2


General IT Control Findings and Recommendation	                                                  3


Related to IT Controls                                                                           3


        Access Controls                                                                          3


        Configuration Management                                                                 3


        Security Management                                                                      4


        Contingency Planning                                                                     4


        Segregation of Duties                                                                    4


Related to Financial System Functionality	                                                       4





                                          APPENDICES

Appendix                                         Subject                                        Page
   A	      Description of Key Financial Systems within the Scope of the FY 2011 DHS Financial    7

           Statement Audit


   B	      FY 2011 Notices of IT Findings and Recommendations at DHS                             15

               �   Notice of Findings and Recommendations – Definition of Severity Ratings
                                                                                                 16
               �   Notice of Findings by DHS Component                   .	                      17


   C	      Status of Prior Year Notices of Findings and Recommendations and Comparison to        39

           Current Year Notices of Findings and Recommendations at DHS


   D	      Report Distribution                                                                   46

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011

                         OBJECTIVE, SCOPE, AND APPROACH
During our engagement to perform an integrated audit of DHS, we evaluated the design and
effectiveness of IT general controls of DHS’ financial processing environment and related IT
infrastructure as necessary to support the engagement. The Federal Information System Controls
Audit Manual (FISCAM), issued by the GAO, formed the basis of our audit as it relates to IT
general controls assessments at DHS.
FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of
the financial audit. FISCAM also provides guidance to IT auditors when considering the scope and
extent of review that generally should be performed when evaluating general controls and the IT
environment of a federal agency. FISCAM defines the following five control functions to be
essential to the effective operation of the general IT controls environment.
�	 Security Management (SM) – Controls that provide a framework and continuing cycle of
   activity for managing risk, developing security policies, assigning responsibilities, and
   monitoring the adequacy of computer-related security controls.
�	 Access Control (AC) – Controls that limit or detect access to computer resources (data,
   programs, equipment, and facilities) and protect against unauthorized modification, loss, and
   disclosure.
�	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to
   information system resources (software programs and hardware configurations) and provides
   reasonable assurance that systems are configured and operating securely and as intended.
�	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.
To complement our general IT controls audit procedures, we also performed technical security
testing for key network and system devices, as well as testing over key financial application
controls in the DHS environment. The technical security testing was performed both over the
Internet and from within select DHS facilities, and focused on test, development, and production
devices that directly support key general support systems.
In addition, we performed application control tests on a limited number of DHS’ financial systems
and applications. The application control testing was performed to assess the input, processing, and
output of financial data and transactions that support the financial systems’ internal controls.
Application controls are the structure, policies, and procedures that apply to separate, individual
application systems, such as accounts payable, inventory, or payroll. Specific results of the
application controls test work is provided in a separate Limited Official Use IT Management
letter provided to component management and the OIG.
In recent years, we’ve noted that the DHS’ financial system functionality may be inhibiting the
agency’s ability to implement and maintain internal controls, notably IT applications controls
supporting financial data processing and reporting at some components. At most components, the
financial systems have not been substantially updated since being inherited from legacy agencies
eight years ago. Therefore, in FY 2011, we continued to evaluate and consider the impact of
financial system functionality over financial reporting.
   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 1

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011


                SUMMARY OF FINDINGS AND RECOMMENDATION
During our FY 2011 assessment of IT general and application controls and financial system
functionality, we noted that the DHS made some progress in remediation of IT findings we reported
in FY 2010. We have closed approximately 30 percent of our prior year IT findings. The
Immigration and Customs Enforcement (ICE), Federal Emergency Management Agency (FEMA),
and Federal Law Enforcement Training Center (FLETC) made the most progress in closing IT
findings from the prior year. In addition, we issued fewer new findings in FY 2011 compared to the
number of new findings in FY 2010. In FY 2011, we identified approximately 147 findings, of
which approximately 72 percent are repeated from last year. Approximately 44 percent of our
repeat findings were for IT deficiencies that management represented were corrected during FY
2011. The majority of new deficiencies were noted at Customs Border and Protection (CBP).
The most significant weaknesses from a financial statement audit perspective include: 1) excessive
unauthorized access to key DHS financial applications, resources, and facilities; 2) configuration
management controls that are not fully defined, followed, or effective; 3) security management
deficiencies in the area of the certification and accreditation process and an ineffective program to
enforce role-based security training and compliance; 4) contingency planning that lacked current,
tested, contingency plans developed to protect DHS resources and financial applications; and 5)
lack of proper segregation of duties for roles and responsibilities within financial systems.
The conditions supporting our findings collectively limited DHS’ ability to ensure that critical
financial and operational data were maintained in such a manner to ensure confidentiality, integrity,
and availability. In addition, these deficiencies negatively impacted the internal controls over DHS’
financial reporting and its operation and we consider them to collectively represent a material
weakness for DHS under standards established by the American Institute of Certified Public
Accountants (AICPA) and the GAO. The IT findings were combined into one material weakness
regarding IT Controls and Financial Systems Functionality for the FY 2011 audit of the DHS
consolidated financial statements.




   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 2

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011


          GENERAL IT CONTROL FINDINGS AND RECOMMENDATION
In FY 2011, a number of IT and financial system functionality deficiencies were identified at DHS.
Approximately 147 findings were identified of which approximately 72 percent are repeated from
last year. The primary (circle) bullets listed below each FISCAM heading are a cross-representation
of the nature of IT general control deficiencies identified throughout the Department’s components.
The secondary (dash) bullets represent single or multiple occurrence findings in one or more
components.
Conditions: Our findings related to general IT controls and financial systems functionality follow:
Related to IT controls:
1.	 Access controls:
   �	 Deficiencies in management of application and/or database accounts, network, and remote
      user accounts.
       �	 System administrator root access to financial applications were not properly restricted,
          logged, and monitored. Emergency and temporary access was not properly authorized,
          and contractor development personnel were granted conflicting access to implement
          database changes;
       �	 Complex password configurations were not implemented and\or enforced;
       �	 User account lists were not periodically reviewed for appropriateness, improper
          authorizations and excessive user access privileges were allowed at some DHS
          components, and users were not disabled or removed promptly upon personnel
          termination; and
       �	 The process for authorizing and managing virtual private network (VPN) access to
          external state emergency management agencies, and component contractors, did not
          comply with DHS and component requirements.
   �   Ineffective safeguards over logical and physical access to sensitive facilities and resources.
       �	 During after-hours physical security walkthroughs, we identified the following
          unsecured items: Personally Identifiable Information (PII); credit cards; financial
          system passwords; laptops; sensitive documentation, and server names and IP addresses;
          and
       �	 While performing social engineering testing, we identified instances where DHS
          employees provided their system user names and passwords to an auditor posing as a
          help desk employee.
   �	 Lack of generation, review, and analysis of system audit logs and adherence to DHS 

      requirements. 

2.	 Configuration management:
   �	 Lack of documented policies and procedures.


   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 3

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011

       �	 Financial systems change control documentation was not updated to represent the
          current operating environment, including sensitive user functions, roles and privileges;
       �	 Limited guidance exists to assist in the development of test plans and the completion of
          functional testing; and
       �	 Configuration, vulnerability, and patch management plans have not been established and
          implemented, or did not comply with DHS policy.
   �	 Security patch management and configuration deficiencies were identified during the
      vulnerability assessment on the platforms supporting the key financial applications and
      general support systems.
3.	 Security management:
   �	 Systems certification and accreditation were not completed and maintained, or documented.
       -   Several component financial and associated feeder systems as well as general support
           systems, were not properly certified and accredited, in compliance with DHS policy;
       -   Compliance with the Federal Desktop Core Configuration (FDCC) security
           configurations is in progress, but has not been completed; and
       -	 System security plans and annual evaluations were not completed and maintained.
   �	 IT Security personnel lack mandatory role-based training or compliance is not documented
      and monitored.
   �	 Background investigations of federal employees and contractors employed to operate,
      manage and provide security over IT systems were not being properly conducted.
4.	 Contingency Planning:
   �	 Service continuity plans were not tested nor updated to reflect the current environment, and
      an alternate processing site has not been established for high risk systems.
   �	 Authorized access to backup media was not periodically reviewed and updated; at one
      component procedures to periodically test backups was not implemented.
5.	 Segregation of Duties:
   �	 Lack of evidence to show that least privilege and segregation of duties controls exist,
      including policies and procedures to define conflicting duties and access rights.
Related to Financial System Functionality:
We noted many cases where financial system functionality is inhibiting DHS’ ability to implement
and maintain internal controls, notably IT application controls supporting financial data processing
and reporting. Financial system functionality limitations also contribute to other control
deficiencies reported in our Independent Auditors’ Report Exhibits I, II, and III, and compliance
findings presented in Exhibit IV dated November 11, 2011. We noted persistent and pervasive
financial system functionality conditions at all of the significant DHS components in the following
general areas:


   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 4

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011

    �	 Lack of integration between the core financial systems and key feeder systems, such as
       property management systems, leading to errors and inefficiencies in the processing and
       reporting of financial data.
    �	 Inability of financial systems to process, store, and report financial and performance data to
       facilitate decision making, safeguarding and management of assets, and prepare financial
       statements that comply with generally accepted accounting principles (GAAP).
    �	 Technical configuration limitations, such as outdated systems that are no longer fully
       supported by the software vendors, impairing DHS’ ability to fully comply with policy in
       areas such as IT security controls, notably password management, audit logging, user
       profile changes, and the restricting of access for terminated employees and contractors.
    �	 System capability limitations prevent or restrict the use of applications controls to replace
       less reliable, more costly manual controls. Or in some cases, require additional manual
       controls to compensate for IT security or control weaknesses.
    �	 Inability to routinely query various general ledgers to obtain a complete population of
       financial transactions, and consequently must create many manual custom queries that delay
       financial processing and reporting processes.
    �	 Limitations in processing overhead cost data and depreciation expenses in support of the
       property, plant and equipment financial statement line item.
    �	 Production versions of financial systems are outdated and do not provide the necessary core
       functional capabilities (e.g., general ledger capabilities).
    �	 Financial systems functionality limitations are preventing one component from establishing
       automated processes and application controls that would improve accuracy, reliability, and
       facilitate efficient processing of certain financial data such as:
       -   Ensuring proper segregation of duties and access rights, such as automating the
           procurement process to ensure that only individuals who have proper contract authority
           can approve transactions or setting system access rights within the fixed asset subsidiary
           ledger;
       -   Maintaining sufficient data to support Fund Balance with Treasury related transactions,
           including suspense activity;
       -   Maintaining adequate posting logic transaction codes to ensure that transactions are
           recorded in accordance with GAAP; and
       -   Tracking detailed transactions associated with intra-governmental business and
           eliminating the need for default codes that cannot be easily researched.
Cause/Effect: Many financial system and IT control weaknesses have resulted from DHS’ long-
standing inability to upgrade its financial system capabilities. The Transformation and Systems
Consolidation (TASC) initiative, postponed during FY 2011, is the latest DHS financial systems
modernization effort to be postponed, delayed, or canceled. DHS’ broad and systemic financial
system and IT control limitations will not be fully addressed until DHS and/or the components
implement a stable financial system platform. Once a new strategy and plan are developed, it will
likely take DHS several years to implement process and system improvements.

   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 5

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011

The conditions supporting our findings collectively limit DHS’ ability to process, store, and report
financial data in a manner to ensure accuracy, confidentiality, integrity, and availability. Many of
the weaknesses may result in material errors in DHS’ financial data that are not detected in a timely
manner through the normal course of business. In addition, because of the presence of IT control
and financial system functionality weaknesses; there is added pressure on mitigating controls to
operate effectively. Because mitigating controls are often more manually focused, there is an
increased risk of human error that could materially affect the financial statements.
Recommendation: We recommend that the DHS Office of the Chief Information Officer (OCIO),
in coordination with the Office of the Chief Financial Officer (OCFO), make necessary
improvements to the Department’s financial management systems and supporting IT security
controls.




   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 6

                                                                         Appendix A
                         Department of Homeland Security
                     Information Technology Management Letter
                                September 30, 2011




                                 Appendix A


Description of Key Financial Systems within the Scope of the FY
             2011 DHS Financial Statement Audit




  Information Technology Management Letter for the FY 2011 Department of Homeland 

                         Security’s Financial Statement Audit

                                        Page 7

                                                                                      Appendix A
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2011

Below is a description of significant financial management systems included in the scope of the
engagement to perform the financial statement audit.
United States Coast Guard (USCG)
Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial
statements for the Coast Guard. CAS is hosted at the Coast Guard’s Finance Center (FINCEN) in
Virginia (VA). The FINCEN is the Coast Guard’s primary data center. CAS interfaces with two
other systems located at the FINCEN, the Workflow Imaging Network System and the Financial
and Procurement Desktop.

Financial Procurement Desktop (FPD)
The FPD application is used to create and post obligations to the core accounting system. It allows
users to enter funding, create purchase requests, issue procurement documents, perform system
administration responsibilities, and reconcile weekly program element status reports. FPD is
interconnected with the CAS system and is located at the FINCEN in VA.

Workflow Imaging Network System (WINS)
WINS is the document image processing system, which is integrated with an Oracle
Developer/2000 relational database. WINS allows electronic data and scanned paper documents to
be imaged and processed for data verification, reconciliation and payment. WINS utilizes
MarkView software to scan documents and to view the images of scanned documents and to render
images of electronic data received. WINS is interconnected with the CAS and FPD systems and is
located at the FINCEN in VA.

Joint Uniform Military Pay System (JUMPS)

JUMPS is a mainframe application used for paying USCG active and reserve payroll. JUMPS is
located at the Pay and Personnel Center (PPC) in Kansas (KS).

Direct Access
Direct Access is the system of record and all functionality, data entry, and processing of payroll
events is conducted exclusively in Direct Access. Direct Access is maintained by IBM Application
On Demand (IBM AOD) in the iStructure data center facility in Arizona (AZ) with a hot site
located in a Qwest data center in VA.

Global Pay (Direct Access II)
Global Pay provides retiree and annuitant support services. Global Pay is maintained by IBM AOD
in the iStructure data center facility in AZ with a hot site located in a Qwest data center in VA.




   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 8

                                                                                      Appendix A
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2011

Shore Asset Management (SAM)
SAM is hosted at the Coast Guard’s Operation System Center (OSC) in West Virginia (WV). SAM
provides core information about the USCG shore facility assets and facility engineering. The
application tracks activities and assists in the management of the Civil Engineering (CE) Program
and the Facility Engineering (FE) Program. SAM data contributes to the shore facility assets full
life cycle Program management, facility engineering full life cycle Program management and
rationale to adjust the USCG mission needs through planning, budgeting, and project funding.
SAM also provides real property inventory and management of all shore facilities, in addition to the
ability to manage and track the facilities engineering equipment and maintenance of that equipment.

Naval and Electronics Supply Support System (NESSS)
NESSS is one of four automated information systems that comprise the family of Coast Guard
logistics systems. NESSS is a fully integrated system linking the functions of provisioning and
cataloging, unit configuration, supply and inventory control, procurement, depot-level maintenance
and property accountability, and a full financial ledger.

Aviation Logistics Management Information System (ALMIS)
ALMIS provides Coast Guard Aviation logistics management support in the areas of operations,
configuration management, maintenance, supply, procurement, financial, and business intelligence.
Additionally, ALMIS covers the following types of information: Financial, Budget, Planning,
Aircraft & Crew Status, Training & Readiness, and Logistics & Supply. The Aviation Maintenance
Management Information System (AMMIS), a subcomponent of ALMIS, functions as the inventory
management/fiscal accounting component of the ALMIS application. The Aircraft Repair &
Supply Center Information Systems Division in North Carolina (NC) hosts the ALMIS application.

CG Treasury Information Executive Repository (CG Tier)
CG TIER is a financial data warehouse containing summarized and consolidated financial data
relating USCG operations. It is one of several supporting applications within CAS Suite designed
to support the core financial services provided by FINCEN. CG TIER provides monthly
submissions to DHS Consolidated TIER.

Customs and Border Protection (CBP)
SAP Enterprise Central Component (SAP ECC 6.0)
SAP is a client/server-based financial management system and includes the Funds Management,
Budget Control System, General Ledger, Real Estate, Property, Internal Orders, Sales and
Distribution, Special Purpose Ledger, and Accounts Payable modules. These modules are used by
CBP to manage assets (e.g., budget, logistics, procurement, and related policy), revenue (e.g.,
accounting and commercial operations: trade, tariff, and law enforcement), and to provide
information for strategic decision making. The SAP ECC 6.0 system is located in VA.




   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 9

                                                                                        Appendix A
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011

Automated Commercial System (ACS)
ACS is a collection of mainframe-based business process systems used to track, control, and
process commercial goods and conveyances entering the United States territory, for the purpose of
collecting import duties, fees, and taxes owed the Federal government. ACS collects duties at ports,
collaborates with financial institutions to process duty and tax payments, provides automated duty
filing for trade clients, and shares information with the Federal Trade Commission on trade
violations and illegal imports. The ACS system is located in VA.

Automated Commercial Environment (ACE)
ACE is the commercial trade processing system being developed by CBP to facilitate trade while
strengthening border security. It is CBP’s plan that the ACE replace ACS when ACE is fully
implemented. The mission of ACE is to implement a secure, integrated, government-wide system
for the electronic collection, use, and dissemination of international trade and transportation data
essential to federal agencies. ACE is being deployed in phases, with no set final full deployment
date due to funding setbacks. The ACE system is located in VA.

Federal Law Enforcement and Training Center (FLETC)
Financial Accounting and Budgeting System (FABS)
The FLETC FABS application is an all-in-one financial processing system. It functions as the
computerized accounting and budgeting system for FLETC. The FABS system exists to provide all
of the financial and budgeting transactions in which FLETC is involved. An application called
“Tuxedo,” also resides on a separate server. The Tuxedo middleware holds 67 executable files.
These files are scripts that process daily information and are not directly accessible by users. The
FABS application and servers reside on the FLETC LAN in a Hybrid physical network topology
and are accessible from four sites: Georgia, Washington D.C., New Mexico, and Maryland.

Glynco Administrative Network
The purpose of the Glynco Administrative Network (GAN) is to provide access to IT network
applications and services to include voice to authorized FLETC personnel, contractors and partner
organizations located at the Georgia facility. It provides authorized users access to email, internet
services, required applications such as Financial Management Systems (FMS), Procurement
systems, Property management systems, Video conference, and other network services and shared
resources. The GAN is located in GA.

Federal Emergency Management Agency (FEMA)
IFMIS-Merger
IFMIS-Merger is the official accounting system of FEMA and maintains all financial data for
internal and external reporting. IFMIS-Merger is comprised of five subsystems: Funding, Cost
Posting, Disbursements, Accounts Receivable, and General Ledger. The application is a
Commercial Off-The Shelf (COTS) software package developed and maintained by Digital Systems
Group Incorporated (DSG). IFMIS-Merger interfaces with Payment and Reporting System
(PARS), ProTrac, Smartlink (Department of Health and Human Services), Treasury Information
   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 10

                                                                                      Appendix A
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2011

Executive Repository (TIER) (Department of the Treasury), Secure Payment System (SPS)
(Department of the Treasury), Grants Management System (Department of Justice), National
Emergency Management Information System (NEMIS), US Coast Guard Credit Card System,
Credit Card Transaction Management System (CCTMS), Fire Grants, eGrants, Enterprise Data
Warehouse (EDW), and Payroll (Department of Agriculture National Finance Center). IFMIS-
Merger is located in VA.
Payment and Reporting System (PARS)
The PARS is a standalone web-based application. The database resides on the IFMIS-Merger
UNIX server and is incorporated within the Certification & Accreditation (C&A) boundary for that
system. Through its web interface, PARS collects Standard Form 425 information from grantees
and stores the information in its Oracle 9i database. Automated chronological jobs are run daily to
update and interface grant and obligation information between PARS and IFMIS-Merger. All
payments to grantees are made through IFMIS-Merger. PARS interfaces with IFMIS-Merger and is
located in VA.

National Emergency Management Information System (NEMIS)
NEMIS is a FEMA-wide General Support System (GSS) integrating hardware, software,
telecommunications infrastructure, and Web-based and client-server services and applications.
NEMIS consists of many integrated subsystems distributed over hundreds of separate servers
accessed by thousands of client workstations.
NEMIS is an integrated system to provide FEMA, the states, and other Federal agencies with
functionality and automation to perform disaster related operations. The subsystems and
applications incorporated within NEMIS support all phases of emergency management and provide
financial related data to IFMIS via automated interfaces. NEMIS interfaces with IFMIS, US Coast
Guard Credit Card System, and the Small Business Administration. The production environment
for NEMIS is geographically distributed nationwide but is principally administered and managed in
VA.

Traverse
Traverse is the general ledger application currently used by the National Flood Insurance Program
(NFIP) Bureau and Statistical Agent to generate the NFIP financial statements. Traverse is a client-
server application that runs on the NFIP Local Area Network (LAN) Windows server environment
in Maryland. The Traverse client is installed on the desktop computers of the NFIP Bureau of
Financial Statistical Control group members.

Transaction Recording and Reporting Processing (TRRP)
The TRRP application acts as a central repository of all data submitted by the Write Your Own
(WYO) companies and the Direct Servicing Agent (DSA) for the NFIP. TRRP also supports the
WYO program, primarily by ensuring the quality of financial data submitted by the WYO
companies and DSA to TRRP. TRRP is a mainframe-based application that runs on the NFIP
mainframe logical partition in Connecticut.


   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 11

                                                                                     Appendix A
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2011


Immigration and Customs Enforcement (ICE)
Federal Financial Management System (FFMS)
The FFMS is a CFO designated financial system and certified software application that conforms to
OMB Circular A-127 and implements the use of a Standard General Ledger for the accounting of
agency financial transactions. It is used to create and maintain a record of each allocation,
commitment, obligation, travel advance and accounts receivable issued. It is the system of record
for the agency and supports all internal and external reporting requirements. FFMS is a commercial
off-the-shelf financial reporting system. It includes the core system used by accountants, FFMS
Desktop that is used by average users, and a National Finance Center (NFC) payroll interface. The
FFMS mainframe component and two network servers are hosted at the DHS DC2 facility located
in VA. FFMS currently interfaces with the following systems:
�	 Direct Connect for transmission of DHS payments to Treasury
�	 Fed Travel
�	 The Biweekly Examination Analysis Reporting (BEAR) and Controlling Accounting Data
   Inquiry (CADI), for the purpose of processing NFC user account and payroll information.
�	 The Debt Collection System (DCOS)
�	 Bond Management Information System (BMIS) Web

ICE Network
The ICE Network, also known as the Active Directory/Exchange (ADEX) E-mail System, is a
major application for ICE and other DHS components, such as the USCIS. The ADEX servers and
infrastructure for the headquarters and National Capital Area are located in Washington, DC.
ADEX currently interfaces with the Diplomatic Telecommunications Service Program Office
ICENet Infrastructure.

Office of Financial Management (OFM)/Consolidated Component
DHS Treasury Information Executive Repository (DHSTIER)
DHSTIER is the system of record for the DHS consolidated financial statements and is used to
track, process, and perform validation and edit checks against monthly financial data uploaded from
each of the DHS bureaus’ core financial management systems. DHSTIER is administered jointly
by the OCFO Resource Management Transformation Office (RMTO) and the OCFO Office of
Financial Management (OFM) and is hosted on the DHS OneNet at the Stennis Data Center in
Mississippi (MS).




   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 12

                                                                                       Appendix A
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2011


Chief Financial Office VISION (CFO Vision)
CFO Vision is a subsystem of DHSTIER used for the consolidation of the financial data and the
preparation of the DHS financial statements. CFO Vision is also administered by RMTO and OFM
and is hosted on the DHS OneNet at the Stennis Data Center in MS.

Transportation Security Administration (TSA)
Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial
statements for the United States Coast Guard. CAS is hosted at the Coast Guard’s FINCEN in VA
and is managed by the United States Coast Guard. The FINCEN is the Coast Guard’s primary
financial system data center. CAS interfaces with other systems located at the FINCEN, including
Financial and Procurement Desktop.

Financial Procurement Desktop (FPD)
The FPD application is used to create and post obligations to the core accounting system. It allows
users to enter funding, create purchase requests, issue procurement documents, perform system
administration responsibilities, and reconcile weekly program element status reports. FPD is
interconnected with the CAS system and is hosted at the FINCEN in VA and is and managed by the
United States Coast Guard.

Sunflower
Sunflower is a customized third party COTS product used for TSA and Federal Air Marshals
property management. Sunflower interacts directly with the Office of Finance Fixed Assets module
in CAS. Additionally, Sunflower is interconnected to the FPD system and is hosted at the FINCEN
in VA and is managed by the United States Coast Guard.

MarkView
MarkView is imaging and workflow software used to manage invoices in CAS. Each invoice is
stored electronically and associated to a business transaction so that users are able to see the image
of the invoice. MarkView is interconnected with the CAS system and is located at the FINCEN in
VA and is managed by the United States Coast Guard.

United States Citizenship and Immigration Services (USCIS)
CLAIMS 3 Local Area Network (LAN)
CLAIMS3 LAN provides USCIS with a decentralized, geographically dispersed LAN based
mission support case management system, with participation in the centralized CLAIMS 3
Mainframe data repository. CLAIMS 3 LAN supports the requirements of the Direct Mail Phase I
and II, Immigration Act of 1990 (IMMACT 90) and USCIS forms improvement projects. The
CLAIMS 3 LAN is located at the following service centers and district offices: Nebraska,
California, Texas, Vermont, Baltimore District Office, and Administrative Appeals Office.
CLAIMS 3 LAN interfaces with the following systems:
   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 13

                                                                                     Appendix A
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2011

�   Citizenship and Immigration Services Centralized Oracle Repository (CISCOR)
�   CLAIMS 3 Mainframe
�   Integrated Card Production System (ICPS)
�   CLAIMS 4
�   E-filing
�   Benefits Biometric Support System (BBSS)
�   Refugee, Asylum, and Parole System (RAPS)
�   National File Tracking System (NFTS)
�   Integrated Card Production System (ICPS)
�   Customer Relationship Interface System (CRIS)
�   USCIS Enterprise Service Bus (ESB)

CLAIMS 4
The purpose of CLAIMS 4 is to track and manage naturalization applications. Claims 4 is a
client/server application. The central Oracle Database is located in Washington, DC while
application servers and client components are located throughout USCIS service centers and district
offices. CLAIMS 4 interfaces with the following systems:
�   Central Index System (CIS)
�   Reengineered Naturalization Automated Casework System (RNACS)
�   CLAIMS 3 LAN and Mainframe
�   Refugee, Asylum, and Parole System (RAPS)
�   Enterprise Performance Analysis System (ePAS)
�   National File Tracking System (NFTS)
�   Asylum Pre-Screening System (APSS)
�   USCIS Enterprise Service Bus (ESB)
�   Biometrics Benefits Support System (BBSS)
�   Enterprise Citizenship and Immigration Service Centralized Operational Repository (eCISOR)
�   Customer Relationship Interface System (CRIS)
�   FD 258 Enterprise Edition and Mainframe
�   Site Profile System (SPS)




    Information Technology Management Letter for the FY 2011 Department of Homeland 

                           Security’s Financial Statement Audit

                                          Page 14

                                                                        Appendix B
                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2011




                                 Appendix B

FY 2011 Notices of IT Findings and Recommendations at DHS





 Information Technology Management Letter for the FY 2011 Department of Homeland 

                        Security’s Financial Statement Audit

                                       Page 15

                                                                                       Appendix B
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2011

Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in appendix B is assigned a severity rating from 1 to 3 indicating the influence on
the Department of Homeland Security (DHS) Consolidated Independent Auditors Report.

      1 – Not substantial
      2 – Less significant
      3 – More significant

The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for consolidated reporting purposes.
These rating are provided only to assist the DHS in prioritizing the development of its corrective
action plans for remediation of the deficiency.




   Information Technology Management Letter for the FY 2011 Department of Homeland 

                          Security’s Financial Statement Audit

                                         Page 16

                                                                       Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2011




            Department of Homeland Security

    FY2011 Information Technology - Notice of Findings


                    � United States Coast Guard




Information Technology Management Letter for the FY 2011 Department of Homeland 

                       Security’s Financial Statement Audit

                                      Page 17

                                                                                                                                 Appendix B
                                                                  Department of Homeland Security
                                                              Information Technology Management Letter
                                                                         September 30, 2011

FY 2011 NFR #                             NFR Title                              FISCAM Control Area       Severity Rating   New Issue   Repeat Issue
 CG-IT-11-01    Security Awareness Issues Associated with Physical Protection       Access Controls               2                          X
                of Sensitive Information
 CG-IT-11-02    Direct Access and Direct Access II User and System                  Access Controls              1              X
                Administrator Account Management and Approval
 CG-IT-11-03    Coast Guard Treasury Information Executive Repository (CG           Access Controls              1                            X
                TIER) resource owners’ identification of authorized users
 CG-IT-11-04    Weaknesses Related to Information Assurance (IA)                  Security Management            1                            X
                Professionals’ Required Certifications
 CG-IT-11-05    Configuration Management Controls over the Scripting Process    Configuration Management         3                            X
 CG-IT-11-06    Civilian Background Investigations                                Security Management            2                            X
 CG-IT-11-07    Contractor Background Investigations                              Security Management            2                            X
 CG-IT-11-08    Security Awareness Issues Associated with the Social                Access Controls              2                            X
                Engineering Testing
 CG-IT-11-09    Operations Systems Center (OSC) Data Center Visitor Access          Access Controls              1              X
                Logs
 CG-IT-11-10    Direct Access and Direct Access II Audit Logging and General        Access Controls              2                            X
                IT Control Validation
 CG-IT-11-11    Aviation Maintenance Management Information System              Configuration Management         1                            X
                (AMMIS) Software Change Requests Process
 CG-IT-11-12    Shore Asset Management (SAM) and Naval and Electronics            Segregation of Duties          1                            X
                Supply Support System (NESSS) Audit Log Review
 CG-IT-11-13    Direct Access System User Account Recertification                   Access Controls              2                            X
 CG-IT-11-14    NESSS Access Authorizations                                         Access Controls              2                            X
 CG-IT-11-15    Lack of Consistent Contractor, Civilian, and Military Account     Security Management            2                            X
                Termination Notification Process for Coast Guard Systems
 CG-IT-11-16    Naval & Electronics Supply Support System Users Who Have            Access Controls              2                            X
                Admin Capabilities
 CG-IT-11-17    Aviation Logistics Management Information System (ALMIS)            Access Controls              2                            X

                 Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                       Page 18
                                                                                                                        Appendix B
                                                               Department of Homeland Security
                                                           Information Technology Management Letter
                                                                      September 30, 2011

              User Recertification
CG-IT-11-18   Non-Compliance with Federal Financial Management                 Security Management      3                             X
              Improvement Act (FFMIA) – Information Technology
CG-IT-11-19   Weaknesses Associated with the Coast Guard Security Incident     Security Management      1              X
              Database and Ticket System
CG-IT-11-20   Access and Configuration Management Controls – Vulnerability   Configuration Management   2              X
              Assessment
CG-IT-11-21   Naval and Electronics Supply Support System User Account           Access Controls        2              X
              Recertification




               Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                     Page 19
                                                                                 Appendix B
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2011




                 Department of Homeland Security

         FY2011 Information Technology - Notice of Findings 


                 � Customs and Border Protection (CBP)




Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                               Financial Statement Audit

                                        Page 20

                                                                                                                                 Appendix B
                                                                 Department of Homeland Security
                                                             Information Technology Management Letter
                                                                        September 30, 2011




FY 2011 NFR #                            NFR Title                             FISCAM Control Area      Severity Rating   New Issue    Repeat
                                                                                                                                        Issue
 CBP-IT-11-01   Security Awareness Issued Identified During Enhanced              Access Controls             2                           X
                Security Testing
CBP-IT-11-02    Physical Security Issues Identified during Enhanced Security      Access Controls             2                          X
                Testing
CBP-IT-11-03    Inadequate Role-based Security Training Program                 Entity Level Controls         2                          X
CBP-IT-11-04    Segregation of Duties Control Weaknesses within the CBP           Access Controls             2                          X
                System
CBP-IT-11-05    CBP System User Profile Change Logs are not Reviewed              Access Controls             2                          X
CBP-IT-11-07    Lack of Monitoring of Developer Emergency/Temporary               Access Controls             2                          X
                Access to a CBP System Production
CBP-IT-11-08    CBP System Novell Server Audit Logs Review Weaknesses             Access Controls             2              X
CBP-IT-11-09    CBP System Contingency Plan has not been Updated                Computer Operations           1              X
CBP-IT-11-10    Lack of Update to CBP System Security Plan                      Entity Level Controls         2              X
CBP-IT-11-11    Incomplete Background Investigations and Reinvestigations       Entity Level Controls         2                          X
                for CBP Employees and Contractors
CBP-IT-11-12    Contractor Separation Procedures are not Updated and            Entity Level Controls         2                          X
                Contractor Separation Forms are not Maintained
CBP-IT-11-13    Inadequate Documentation of CBP System Access Change              Access Controls             2                          X
                Requests

CBP-IT-11-14    CBP Systems User Profile Change Logs are not Reviewed             Access Controls             2              X
CBP-IT-11-15    Incomplete Access Request Forms and Approvals for New             Access Controls             2                          X
                CBP System Accounts
CBP-IT-11-16    Lack of Annual Recertification of CBP System Users                Access Controls             2              X
CBP-IT-11-17    Incomplete Access Request Approval Forms for new Remote           Access Controls             2              X
                Access User Accounts

                Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                      Page 21
                                                                                                                         Appendix B
                                                                    Department of Homeland Security
                                                                Information Technology Management Letter
                                                                           September 30, 2011

CBP-IT-11-18    Incomplete Documentation of Interconnection Security              Access Controls          2                       X
                Agreements (ISA) for ACS Participating Government
                Agencies (PGA) Connections

CBP-IT-11-19    Contractor Non-Disclosure Agreements are Incomplete             Entity Level Controls      2                       X
CBP-IT-11-20    Weaknesses over the Employee Separation Process                 Entity Level Controls      2                       X
CBP-IT-11-21    CBP System Audit Logs Not Appropriately Reviewed                  Access Controls          2         X
CBP-IT-11-22    Lack of Access Requests and Approvals for CBP System              Access Controls          2                       X
                Accounts
CBP-IT-11-23    Lack of Update to CBP System Security Test & Evaluation         Entity Level Controls      2         X
                (ST&E)
CBP-IT-11-24    CBP System Configuration Management Policies and                  Program Changes          2         X
                Procedures Not Formally Documented
CBP-IT-11-25    Weaknesses in Allowed Network Authenticators                      Access Controls          2         X
CBP-IT-11-26    CBP System Audit Logs Not Appropriately Reviewed                  Access Controls          2                       X
CBP-IT-11-27    Security Weaknesses Identified during the Technical               Access Controls          2                       X
                Vulnerability Assessment
CBP-IT-11-28    Installation of Virus Protections on CBP Workstations             Access Controls          2                       X
CBP-IT-11-30    Separated Personnel on CBP System User Listing                    Access Controls          2         X
CBP-IT-11-31    Lack of Functionality in a CBP System                           Security Management        2                       X
CBP-IT-11-32    Separated Personnel on CBP System User Listing                    Access Controls          2         X
CBP-IT-11-33    Lack of Update to CBP System ST&E                               Entity Level Controls      2         X
CBP-IT-11-34    Lack of Update to CBP System ST&E                               Entity Level Controls      2         X
CBP-IT-11-35    Access to Media Recertification is Incomplete                     Access Controls          1                       X
CBP-IT-11-36    Lack of Annual Recertification of CBP System Users                Access Controls          2         X
CBP-IT-11-37    CBP System Privileged User Access Weaknesses                      Access Controls          2         X
                CBP System Segregation of Duties over the Production
CBP-IT-11-38                                                                  Configuration Management     2         X
                Environment
               Note: NFR numbers CBP-IT-11-06 and CBP-IT-11-29 were not used during FY2011


                Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                      Page 22
                                                                                 Appendix B
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2011




                 Department of Homeland Security

         FY2011 Information Technology - Notice of Findings


               � Federal Emergency Management Agency




Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                               Financial Statement Audit

                                        Page 23

                                                                                                                                  Appendix B
                                                                   Department of Homeland Security
                                                               Information Technology Management Letter
                                                                          September 30, 2011

FY 2011 NFR #                              NFR Title                             FISCAM Control Area       Severity Rating   New Issue   Repeat Issue
FEMA-IT-11-01   Alternate Processing Site for the National Emergency              Contingency Planning            3                          X
                Management Information System (NEMIS) Has Not Been
                Established
FEMA-IT-11-02   Weaknesses Exist in the Certification & Accreditation (C&A)       Security Management            3                             X
                Package for the FEMA Switched Network (FSN)-2, which
                Includes the FEMA Local Area Network (LAN)
FEMA-IT-11-03   Weaknesses Exist over the Authorization to Operate (ATO) and      Security Management            3                             X
                C&A Documentation for NEMIS
FEMA-IT-11-04   NEMIS Contingency Plan Does Not Comprehensively Address           Contingency Planning           3                             X
                the Requirements of DHS Policy and Has Not Been Adequately
                Tested
FEMA-IT-11-05   Formalized Training Requirements for Individuals with             Security Management            2                             X
                Significant Information Security Responsibilities Have Not
                Been Fully Implemented and Role-Based Training is Not
                Tracked or Monitored
FEMA-IT-11-06   Documentation Supporting Integrated Financial Management        Configuration Management         2                             X
                Information System (IFMIS)-Merger User Functions Does Not
                Exist
FEMA-IT-11-07   Oracle Databases Supporting Financial Applications within the       Access Controls              2                             X
                Previous NEMIS Accreditation Boundary are Not Configured to
                Enforce Password Requirements
FEMA-IT-11-08   Oracle Databases Supporting Financial Applications within the       Access Controls              3                             X
                Previous NEMIS Accreditation Boundary Do Not Adequately
                Enforce Account Lockout Requirements
FEMA-IT-11-09   Operating System Audit Logging on Servers Supporting                Access Controls              3                             X
                Financial Applications within the Previous NEMIS
                Accreditation Boundary is Not Adequate
FEMA-IT-11-10   Weaknesses Existed over Contingency Planning, Testing and         Contingency Planning           1                             X
                Development of the Continuity of Operations Plan for the
                Transaction Record Reporting and Processing Application
                (TRRP) and Traverse
FEMA-IT-11-11   Recertification of NEMIS Access Control System Position             Access Controls              1                             X
                  Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                        Page 24
                                                                                                                             Appendix B
                                                                   Department of Homeland Security
                                                               Information Technology Management Letter
                                                                          September 30, 2011

                Assignments is Incomplete
FEMA-IT-11-12   Audit Logging on Databases Supporting Financial Applications        Access Controls        3                              X
                within the Previous NEMIS Accreditation Boundary is Not
                Adequate
FEMA-IT-11-13   Weaknesses Exist over Vulnerability Management for Servers      Configuration Management   2                              X
                Supporting Financial Applications within the Previous NEMIS
                Accreditation Boundary
FEMA-IT-11-14   National Flood Insurance Program (NFIP) Physical Access             Access Controls        2             X
                Policies and Procedures were Not Appropriately Documented
                and Implemented
FEMA-IT-11-15   NFIP LAN and Traverse Account Security Configuration Is Not         Access Controls        1             X
                in Compliance with DHS Policy
FEMA-IT-11-16   TRRP Logical Access was Not Appropriately Authorized                Access Controls        2             X
FEMA-IT-11-17   Weaknesses Exist over Configuration and Operating                   Access Controls        2             X
                Effectiveness of Traverse Audit Logs
FEMA-IT-11-18   Monitoring of Configuration Changes Deployed to the IFMIS-      Configuration Management   3                              X
                Merger Production Environment are Inadequate
FEMA-IT-11-19   Weaknesses Exist over Configuration Management Processes        Configuration Management   3                              X
                for Financial Applications within the Previous NEMIS
                Accreditation Boundary
FEMA-IT-11-20   Weaknesses Exist over IFMIS-Merger Configuration                Configuration Management   3                              X
                Management Processes
FEMA-IT-11-21   Weaknesses Exist over Recertification of Access to the IFMIS-       Access Controls        3                              X
                Merger Application
FEMA-IT-11-22   Weaknesses Exist over TRRP Mainframe Audit Logs                     Access Controls        2                              X
FEMA-IT-11-23   Emergency and Temporary Access to IFMIS-Merger is Not               Access Controls        2                              X
                Properly Authorized
FEMA-IT-11-24   Weaknesses Exist over IFMIS-Merger Application and Database         Access Controls        3                              X
                Audit Logging
FEMA-IT-11-25   IFMIS-Merger User Access was Not Managed in Accordance              Access Controls        1                              X
                with Account Management Procedures
FEMA-IT-11-26   Payment and Reporting System (PARS) Database Security               Access Controls        2                              X
                  Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                        Page 25
                                                                                                                             Appendix B
                                                                  Department of Homeland Security
                                                              Information Technology Management Letter
                                                                         September 30, 2011

                Controls Are Not Appropriately Established
FEMA-IT-11-27   NFIP LAN Audit Logging is Not Performed in Accordance with        Access Controls        1                                X
                DHS and FEMA Requirements
FEMA-IT-11-28   Individual User Virtual Private Network (VPN) Access              Access Controls        3                                X
                Accounts are Not Appropriately Authorized or Recertified
FEMA-IT-11-29   External Connections to the FEMA VPN Are Not Appropriately        Access Controls        3                                X
                Authorized or Documented
FEMA-IT-11-30   IFMIS-Merger System Software Administrator Activity Is Not        Access Controls        3                                X
                Appropriately Restricted or Monitored
FEMA-IT-11-31   Weaknesses Exist over C&A Documentation for IFMIS-Merger        Security Management      3                                X
FEMA-IT-11-32   Risk Assessment Activities over NFIP IT Systems were Not        Security Management      2                                X
                Adequately Performed
FEMA-IT-11-33   Weaknesses Exist over Management and Technical Controls           Access Controls        1                                X
                Associated with FEMA LAN Accounts
FEMA-IT-11-34   Employee Termination Process for Removing System Access           Access Controls        3                                X
                Should Be More Proactive
FEMA-IT-11-35   Traverse Configuration Management Plan Weaknesses             Configuration Management   2                                X
FEMA-IT-11-36   TRRP Configuration Management Plan Weaknesses                 Configuration Management   2                                X
FEMA-IT-11-37   Documentation Supporting TRRP Test Libraries Does Not         Configuration Management   1               X
                Reflect Current Environment
FEMA-IT-11-38   Federal Insurance and Mitigation Administration (FIMA)        Configuration Management   2               X
                Configuration Management Program has Not Been Developed
FEMA-IT-11-39   Weaknesses Exist over Background Investigations for Federal     Security Management      2                                X
                Employees and Contractors
FEMA-IT-11-40   Weaknesses in the Management of Plans of Action &               Security Management      3                                X
                Milestones (POA&Ms) for Audit Findings over FEMA
                Financial Systems
FEMA-IT-11-41   Physical Security and Security Awareness Issues Associated        Access Controls        2                                X
                with Enhanced Security Testing at FEMA
FEMA-IT-11-42   Traverse Accounts Were Not Appropriately Recertified              Access Controls        2               X
FEMA-IT-11-43   Lack of Adequate Configuration Management over Network        Configuration Management   2                                X

                  Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                        Page 26
                                                                                                                             Appendix B
                                                                  Department of Homeland Security
                                                              Information Technology Management Letter
                                                                         September 30, 2011

                Devices Supporting Financial Systems
FEMA-IT-11-44   Password, Patch, and Configuration Management Weaknesses        Configuration Management   3             X
                Were Identified during the Vulnerability Assessment on IFMIS,
                NEMIS, and Key Support Servers
FEMA-IT-11-45   Vulnerability Assessment Program for the NFIP LAN               Configuration Management   1                              X
                Supporting Traverse was Inadequate
FEMA-IT-11-46   Weaknesses Existed over the Configuration Patch Management      Configuration Management   1                              X
                Process for the NFIP LAN Supporting Traverse
FEMA-IT-11-47   Weaknesses Exist over the Configuration and Testing of            Contingency Planning     3                              X
                Backups for Servers Supporting Financial Applications Within
                the Previous NEMIS Accreditation Boundary
FEMA-IT-11-48   Key Controls over Production Servers Supporting Applications    Configuration Management   3                              X
                Within the Former NEMIS Accreditation Boundary Have Not
                Been Implemented




                  Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                        Page 27
                                                                                 Appendix B
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2011




                 Department of Homeland Security

         FY2011 Information Technology - Notice of Findings


              � Federal Law Enforcement Training Center




Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                               Financial Statement Audit

                                        Page 28

                                                                                                                                    Appendix B
                                                                    Department of Homeland Security
                                                                Information Technology Management Letter
                                                                           September 30, 2011




FY 2011 NFR #                               NFR Title                           FISCAM Control Area        Severity Rating   New Issue    Repeat Issue
FLETC-IT-11-01   Ineffective Logical Access Controls over Student Information      Access Controls                2                           X
                 System
FLETC-IT-11-02   Ineffective Segregation of Duties Controls for the Momentum     Segregation of Duties           2              X
                 System




                   Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                         Page 29
                                                                                  Appendix B
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2011




                 Department of Homeland Security

         FY2011 Information Technology - Notice of Findings 


                � Immigration and Customs Enforcement




Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                               Financial Statement Audit

                                        Page 30

                                                                                                                                  Appendix B
                                                                  Department of Homeland Security
                                                              Information Technology Management Letter
                                                                         September 30, 2011



 2011 NFR #                           NFR Title                                 FISCAM Control Area      Severity Rating   New Issue    Repeat Issue
ICE-IT-11-01   ADEX Resource Servers and Workstations have Inadequate              Access Controls              3             X
               Patch Management
ICE-IT-11-02   Terminated/Transferred Personnel are not Removed from               Access Controls             2                               X
               ADEX in a Timely Manner
ICE-IT-11-03   Access Recertification Review is not Completed for FFMS.            Access Controls             2              X
ICE-IT-11-04   Weak FFMS Segregation of Duties                                     Access Controls             2                               X
ICE-IT-11-05   Security Awareness Issues were Identified during Social           Security Management           3                               X
               Engineering
ICE-IT-11-06   FFMS Network and Servers were Installed with Default                Access Controls             3                               X
               Configuration Settings and Protocols
ICE-IT-11-07   FFMS Mainframe Production Databases were Installed and              Access Controls             3                               X
               Configured without Baseline Security Configurations
ICE-IT-11-08   FFMS Servers have Inadequate Patch Management                       Access Controls             3                               X
ICE-IT-11-09   Default Installation and Configuration of Cisco Routers on ICE      Access Controls             3                               X
               Network
ICE-IT-11-10   Security Awareness Issues Identified During After-Hours           Security Management           3                               X
               Walkthrough
ICE-IT-11-11   Lack of Procedures for Transferred/Terminated Personnel Exit      Security Management           2                               X
               Processing




                 Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                       Page 31
                                                                                  Appendix B
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2011




                 Department of Homeland Security

         FY2011 Information Technology - Notice of Findings


                     � Office of Financial Management
                    � Office of Chief Information Officer




Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                               Financial Statement Audit

                                        Page 32

                                                                                                                                  Appendix B
                                                                  Department of Homeland Security
                                                              Information Technology Management Letter
                                                                         September 30, 2011




 2011 NFR #                             NFR Title                             FISCAM Control Area        Severity Rating   New Issue    Repeat Issue
CONS-IT-11-01   Network Logical Access Parameters are not Configured in          Access Controls                1                           X
                Accordance with DHS Policy
CONS-IT-11-02   Security Awareness Issues Identified During After-Hours        Security Management             2              X
                Walkthrough
OCIO-IT-11-01   DHS has not Fully Implemented the Federal Desktop Core         Security Management             1                               X
                Configuration (FDCC) Security Configurations Requirements
OCIO-IT-11-02   DHS Physical Controls could be Strengthened                      Access Controls               2              X




                  Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                        Page 33
                                                                                 Appendix B
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2011




                 Department of Homeland Security

         FY2011 Information Technology - Notice of Findings 


                � Transportation Security Administration




Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                               Financial Statement Audit

                                        Page 34

                                                                                                                                  Appendix B
                                                                  Department of Homeland Security
                                                              Information Technology Management Letter
                                                                         September 30, 2011




 2011 NFR #                            NFR Title                              FISCAM Control Area        Severity Rating   New Issue    Repeat Issue
TSA-IT-11-01   Markview – Password Settings                                      Access Controls                2             X
TSA-IT-11-02   Markview – Administrator Account                                  Access Controls               2              X
TSA-IT-11-03   Physical Security and Security Awareness Issues Identified        Access Controls               1                               X
               during Enhanced Security Testing
TSA-IT-11-04   TSA Computer Access Agreement Process                             Access Controls               1                               X
TSA-IT-11-05   Sunflower and Markview User Account Recertifications              Access Controls               2                               X
TSA-IT-11-06   Configuration Management Controls Over the Coast Guard        Configuration Management          2                               X
               Scripting Process




                 Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                       Page 35
                                                                                 Appendix B
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2011




                      Department of Homeland Security

                       FY2011 Information Technology

                             Notice of Findings



           �   United States Citizenship and Immigration Services




Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                               Financial Statement Audit

                                        Page 36

                                                                                                                                   Appendix B
                                                                   Department of Homeland Security
                                                               Information Technology Management Letter
                                                                          September 30, 2011



2011 NFR #                             NFR Title                               FISCAM Control Area        Severity Rating   New Issue    Repeat Issue
CIS-IT-11-01   Equipment and Media Policies and Procedures are not Current        Access Controls                2                           X
CIS-IT-11-02   Weak Password Configuration Controls for CLAIMS 4                  Access Controls               2                               X
CIS-IT-11-03   Policies and Procedures for CLAIMS 3 LAN and CLAIMS 4              Access Controls               2                               X
               Audit Logs
CIS-IT-11-04   Policies and Procedures for Separated CLAIMS 3 LAN                 Access Controls               2                               X
               Accounts
CIS-IT-11-05   Periodic User Access Reviews are not Performed for CLAIMS          Access Controls                                               X
               3 LAN Users
CIS-IT-11-06   Procedures for Transferred/Terminated Personnel Exit             Security Management             3                               X
               Processing are not Finalized
CIS-IT-11-07   Incomplete or Inadequate Access Request Forms for CLAIMS 3         Access Controls               2                               X
               LAN and CLAIMS 4 System Users
CIS-IT-11-08   ICE Resource Server and Inadequate Patch Management                Access Controls               3                               X
               weaknesses impact USCIS Operations
CIS-IT-11-09   Weak Password configuration controls for CLAIMS 3 LAN              Access Controls               2              X
CIS-IT-11-10   Weak Logical Access Controls exist over CLAIMS 4                   Access Controls               2                               X
CIS-IT-11-11   Ineffective Safeguards over Physical Access to Sensitive           Access Controls               2              X
               Facilities and Resources
CIS-IT-11-12   VPN Access Request Forms are not Properly Maintained               Access Controls               2              X
CIS-IT-11-13   Lack of Segregation of Duties for CLAIMS 3 LAN                   Security Management             2                               X
CIS-IT-11-14   ADEX Access Request Forms are not Properly Maintained              Access Controls               1                               X
CIS-IT-11-15   Lack of Computer Security Awareness Training Compliance          Security Management             2                               X
CIS-IT-11-16   Lack of Role-Based Training for Key Security Personnel           Security Management             2              X
CIS-IT-11-17   FFMS Vulnerability Weaknesses Affect USCIS Operations              Access Controls               3                               X




                 Information Technology Management Letter for the FY 2011 Department of Homeland Security’s Financial Statement Audit
                                                                       Page 37
                                                                               Appendix C
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2011




                                    APPENDIX C
Status of Prior Year Notices of Findings and Recommendations and

                          Comparison to

 Current Year Notices of Findings and Recommendations at DHS





Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                               Financial Statement Audit

                                        Page 38

                                                                                              Appendix C
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2011

                  Current Year Notices of Findings and Recommendations

                                                                                         Disposition
   NFR #                                Description                                Closed         Repeat

               Separated Personnel on Automated Commercial Environment
CBP-IT-10-01                                                                         X
               (ACE) User Listings
CBP-IT-10-02   Segregation of Duties Control Weaknesses within ACE                                     X
CBP-IT-10-03   ACE Audit Log Review Weaknesses                                                         X
CBP-IT-10-05   Recertification Review of ACE User Accounts                           X
               Security Awareness Issues Identified During Enhanced Security
CBP-IT-10-06                                                                                           X
               Testing
CBP-IT-10-07   ACE User Access Form Documentation is Incomplete                                        X
               Physical Security Issues Identified during Enhanced Security
CBP-IT-10-08                                                                                           X
               Testing
               Contractor Separation procedures are not Updated and
CBP-IT-10-09                                                                                           X
               Contractor Separation forms are not Maintained
CBP-IT-10-10   Employee Separations Weaknesses                                                         X
CBP-IT-10-11   Contractor Non-Disclosure Agreement Weaknesses                                          X
CBP-IT-10-12   Installation of Virus Protections on CBP Workstations                                   X
CBP-IT-10-13   Inadequate Role-based Security Training Program                       X
CBP-IT-10-14   Raised Floor Access Authorization Process Weakness                                      X
               Automated Commercial System (ACS) User Access Profile
CBP-IT-10-15                                                                                           X
               Change Log Review Procedures Have Not Been Implemented
               Security Weaknesses Identified during Technical Vulnerability
CBP-IT-10-16                                                                                           X
               Assessment
CBP-IT-10-17   ACS Interconnection Security Agreements are Incomplete                                  X
CBP-IT-10-18   ACS User Access Authorization Evidence Weakness                                         X
               Lack of Recertification Authorization Evidence for Personnel with
CBP-IT-10-19                                                                                           X
               Access to Backup Media
               ACS User Access Profile Change Log Review Procedures Have
CBP-IT-10-20                                                                         X
               Not Been Implemented
               Unauthorized Access Attempt Setting for the Mainframe Have
CBP-IT-10-21                                                                                           X
               Not Been Configured
               Background Investigations and Reinvestigations for CBP
CBP-IT-10-22                                                                                           X
               Employees and Contractors are not Completed
               Lack of Monitoring of Developer Emergency/Temporary Access
CBP-IT-10-23                                                                                           X
               to ACS Production
               Lack of Access Requests and Approval for National Data Center
CBP-IT-10-24                                                                                           X
               (NDC) Local Area Network (LAN) Accounts

               Lack of Consistent Contractor, Civilian, and Military Account
CG-IT-10-01                                                                                            X
               Termination Process for Coast Guard Systems
CG-IT-10-02    Contractor Background Investigations                                                    X
CG-IT-10-03    Civilian Background Investigations                                                      X
               Lack of Implemented Guidance Related to Financial Statement
CG-IT-10-04                                                                          X
               Impact Assessment within the Change Control Process
CG-IT-10-05    Configuration Management Controls Over the Scripting Process                            X
CG-IT-10-06    Security Awareness Issues Associated with the Social                                    X
 Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                                Financial Statement Audit

                                         Page 39

                                                                                     Appendix C
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2011

               Engineering Testing
CG-IT-10-07    JUMPS Authorized Users Tracking Weakness                          X
               Coast Guard – Treasury Information Executive Reporting (TIER)
CG-IT-10-08                                                                      X
               System – Password Settings
               Security Awareness Issues Associated with Physical Protection
CG-IT-10-09                                                                              X
               of Sensitive Information
               Weaknesses with Specialized Role-based Training for
CG-IT-10-10                                                                              X
               Individuals with Significant Security Responsibilities
               Coast Guard Treasury Information Executive Repository (CG
CG-IT-10-11                                                                              X
               TIER) Resource Owners’ Identification of Authorized Users
CG-IT-10-12    User Account Recertification - Direct Access Application                  X
               Access and Configuration Management Controls – Vulnerability
CG-IT-10-13                                                                      X
               Assessment
               Naval and Electronic Supply Support System (NESSS) Access
CG-IT-10-14                                                                              X
               Authorizations
               Aviation Logistics Center (ALC) Data Center and Facility
CG-IT-10-15                                                                      X
               Controls
               Aviation Maintenance Management Information System
CG-IT-10-16                                                                      X
               (AMMIS) Password Configuration
               Security Awareness Issues associated with Social Engineering
CG-IT-10-17                                                                              X
               Testing – Follow-up Testing
CG-IT-10-18    AMMIS Audit Log Review                                            X
               Aviation Logistics Management Information System (ALMIS)
CG-IT-10-19                                                                              X
               User Recertification
CG-IT-10-20    AMMIS Software Change Requests Process                                    X
CG-IT-10-21    NESSS User Access Recertification                                         X
CG-IT-10-22    Shore Asset Management (SAM) and NESSS Audit Log Review                   X
CG-IT-10-23    Operations Systems Center (OSC) Data Center Access Reviews        X
               Non-Compliance with Federal Financial Management
CG-IT-10-24                                                                              X
               Improvement Act (FFMIA) – Information Technology
CG-IT-10-25    FINCEN Configuration Management Testing Approval Process          X
CG-IT-10-26    ALC Information Technology Policies and Procedures                X
CG-IT-10-27    NESSS Password Configuration                                      X
CG-IT-10-28    Direct Access Audit Logging                                               X

               Inefficient Definition and Documentation of Access roles at the
CIS-IT-10-01                                                                             X
               National Benefits Center for CLAIMS 3 LAN
               Periodic User Access Reviews are not Performed for CLAIMS 3
CIS-IT-10-02                                                                             X
               LAN users
               Incomplete or Inadequate Access Request Forms for CLAIMS 3
CIS-IT-10-03                                                                             X
               LAN and CLAIMS 4 System Users
               Procedures for Transferred/Terminated Personnel Exit
CIS-IT-10-04                                                                             X
               Processing are not Finalized
CIS-IT-10-05   Equipment and Media Policies and Procedures are not Current               X
CIS-IT-10-06   FFMS Vulnerability Weaknesses Impact USCIS Operations                     X
CIS-IT-10-07   Weak Password Configuration Controls for CLAIMS 4                         X
               Ineffective Safeguards over Physical Access to Sensitive
CIS-IT-10-08                                                                     X
               Facilities and Resources
               Lack of Policies and Procedures for CLAIMS 3 LAN and
CIS-IT-10-09                                                                             X
               CLAIMS 4 Audit Logs

 Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                                Financial Statement Audit

                                         Page 40

                                                                                      Appendix C
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2011

 CIS-IT-10-10   Weak Logical Access Controls Exist over CLAIMS 4                          X
                Lack of Policies and Procedures for Separated CLAIMS 3 LAN
 CIS-IT-10-11                                                                             X
                Accounts
 CIS-IT-10-12   IT Security Awareness Training Compliance is not Monitored                X
 CIS-IT-10-13   ADEX Access Request Forms are not Properly Maintained.                    X
                Default Installation and Configuration of Cisco routers on ICE
 CIS-IT-10-14                                                                             X
                Network Impact USCIS Operations

                Network Logical Access Parameters are not Configured in
CONS-IT-10-01                                                                             X
                Accordance with DHS policy

                Recertification of National Emergency Management Information
FEMA-IT-10-01   System (NEMIS) Access Control System Position Assignments                 X
                is Incomplete
FEMA-IT-10-02   Alternate Processing Site for NEMIS Has Not Been Established              X
                End-User Workstation Screensaver Configuration is Not
FEMA-IT-10-03                                                                     X
                Sufficient
                Operating System Audit Logging on Servers Supporting
FEMA-IT-10-04   Financial Applications within the Previous NEMIS Accreditation            X
                Boundary is Not Adequate
                Payment and Reporting System (PARS) Database Security
FEMA-IT-10-05                                                                             X
                Controls Are Not Appropriately Established
                Oracle Databases Supporting Financial Applications within the
FEMA-IT-10-06   Previous NEMIS Accreditation Boundary are Not Configured to               X
                Enforce Password Requirements
                 Integrated Financial Management Information System (IFMIS)­
FEMA-IT-10-07   Merged Oracle Database is Not Configured to Prevent the Reuse     X
                of Passwords
                Oracle Databases Supporting Financial Applications within the
FEMA-IT-10-08   Previous NEMIS Accreditation Boundary Do Not Adequately                   X
                Enforce Account Lockout Requirements
                Audit Logging on Databases Supporting Financial Applications
FEMA-IT-10-09   within the Previous NEMIS Accreditation Boundary is Not                   X
                Adequate
FEMA-IT-10-10   Inadequate FEMA Contractor Tracking Program                       X
                Weaknesses Exist over IFMIS-Merger Application and Database
FEMA-IT-10-11                                                                             X
                Audit Logging
                Grants & Training (G&T) IFMIS Access Authorizations Were
FEMA-IT-10-12                                                                     X
                Not Consistently Documented
FEMA-IT-10-13   G&T IFMIS Oracle Database Auditing Was Not Sufficient             X
                Weaknesses Exist over Recertification of Access to the IFMIS-
FEMA-IT-10-14                                                                             X
                Merger Application
                Recertification of G&T IFMIS Application and Database Access
FEMA-IT-10-15                                                                     X
                Recertification Was Not Performed
FEMA-IT-10-16   G&T IFMIS Was Not Certified and Accredited                        X
                Formalized Training Requirements for Individuals with
                Significant Information Security Responsibilities Have Not Been
FEMA-IT-10-17                                                                             X
                Fully Implemented and Role-Based Training is Not Tracked or
                Monitored
FEMA-IT-10-18   Weaknesses Exist over the Authorization to Operate (ATO) and              X

   Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                                  Financial Statement Audit

                                           Page 41

                                                                                      Appendix C
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2011

                Certification & Accreditation (C&A) Documentation for NEMIS
                Lack of Adequate Configuration Management over Network
FEMA-IT-10-19                                                                             X
                Devices Supporting Financial Systems
                NEMIS Contingency Plan Does Not Comprehensively Address
FEMA-IT-10-20   the Requirements of DHS Policy and Has Not Been Adequately                X
                Tested
                Employee Termination Process for Removing System Access
FEMA-IT-10-21                                                                             X
                Should Be More Proactive
                Weaknesses Exist over Management and Technical Controls
FEMA-IT-10-22                                                                             X
                Associated with FEMA Local Area Network (LAN) Accounts
                Weaknesses Existed over the Configuration Patch Management
FEMA-IT-10-23   Process for the National Flood Insurance Program (NFIP) LAN               X
                Supporting Traverse
                Risk Assessment Activities over NFIP IT Systems were Not
FEMA-IT-10-24                                                                             X
                Adequately Performed
                Individual User Virtual Private Network (VPN) Access Accounts
FEMA-IT-10-25                                                                             X
                are Not Appropriately Authorized or Recertified
                IFMIS-Merger User Access was Not Managed in Accordance
FEMA-IT-10-26                                                                             X
                with Account Management Procedures
                G&T IFMIS Oracle Database Security Controls Were Not
FEMA-IT-10-27                                                                     X
                Configured Properly
                Weaknesses Exist in the C&A Package for the FEMA Switched
FEMA-IT-10-28                                                                             X
                Network (FSN)-2, which Includes the FEMA LAN
FEMA-IT-10-29   The PARS Has Not Been Certified and Accredited                    X
                Emergency and Temporary Access to IFMIS-Merger is Not
FEMA-IT-10-30                                                                             X
                Properly Authorized
FEMA-IT-10-31   Weaknesses Exist in FEMA’s Incident Response Capability           X
FEMA-IT-10-32   G&T IFMIS and IFMIS-Merger Patch Management Weaknesses            X
                Weaknesses Exist over Vulnerability Management for Servers
FEMA-IT-10-33   Supporting Financial Applications within the Previous NEMIS               X
                Accreditation Boundary
                Weaknesses Exist over Vulnerability Management for G&T
FEMA-IT-10-34                                                                     X
                IFMIS and IFMIS-Merger
FEMA-IT-10-35   Weaknesses Exist over NEMIS Patch Management Guidance             X
                Weaknesses Exist over the Configuration and Testing of
FEMA-IT-10-36   Backups for Servers Supporting Financial Applications Within              X
                the Previous NEMIS Accreditation Boundary
                Security Awareness Issues Associated with Social Engineering
FEMA-IT-10-37                                                                     X
                Testing at FEMA
                Physical Security and Security Awareness Issues Associated with
FEMA-IT-10-38                                                                             X
                Enhanced Security Testing at FEMA
                Monitoring of Configuration Changes Deployed to the IFMIS-
FEMA-IT-10-39                                                                             X
                Merger Production Environment are Inadequate
                System Programmers Had the Ability to Migrate Code into the
FEMA-IT-10-40                                                                     X
                G&T IFMIS Production Environment
                Password, Patch, and Configuration Management Weaknesses
FEMA-IT-10-41   Were Identified during the Vulnerability Assessment on IFMIS,     X
                NEMIS, and Key Support Servers
FEMA-IT-10-42   Weaknesses Exist over C&A Documentation for IFMIS-Merger                  X
FEMA-IT-10-43   Weaknesses Exist over the ATO and C&A Documentation for                   X

  Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                                 Financial Statement Audit

                                          Page 42

                                                                                      Appendix C
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2011

                 NEMIS
                 IFMIS-Merger System Software Administrator Activity Is Not
FEMA-IT-10-44                                                                             X
                 Appropriately Restricted or Monitored
                 Weaknesses Exist over Background Investigations for Federal
FEMA-IT-10-45                                                                             X
                 Employees and Contractors
                 Key Controls over Production Servers Supporting Applications
FEMA-IT-10-46    Within the Former NEMIS Accreditation Boundary Have Not                  X
                 Been Implemented
                 FEMA Management Needs to Improve Planning, Management,
FEMA-IT-10-47    and Communication Related to Financial Systems Development       X
                 and Acquisition Projects
                 Weaknesses in the Management of Plans of Action & Milestones
FEMA-IT-10-48                                                                             X
                 (POA&Ms) for Audit Findings over FEMA Financial Systems
                 Documentation Supporting IFMIS-Merger User Functions Does
FEMA-IT-10-49                                                                             X
                 Not Exist
                 External Connections to the FEMA VPN Are Not Appropriately
FEMA-IT-10-50                                                                             X
                 Authorized or Documented
                 NEMIS Access Restrictions to Program Directories within the
FEMA-IT-10-51                                                                     X
                 Test and Development Laboratory (TDL) Needs Improvement
                 Vulnerability Assessment Program for the NFIP LAN
FEMA-IT-10-52                                                                             X
                 Supporting Traverse was Inadequate
                 Transaction Record Reporting and Processing (TRRP)
FEMA-IT-10-53                                                                     X
                 Mainframe Access Accounts Are Not Periodically Reviewed
                 Inadequate Implementation of DHS Systems Engineering Life
FEMA-IT-10-54                                                                     X
                 Cycle (SELC) Requirements for the IFMIS-Merger Project
                 NFIP LAN Audit Logging is Not Performed in Accordance with
FEMA-IT-10-55                                                                             X
                 DHS and FEMA Requirements
FEMA-IT-10-56    Weaknesses Exist over TRRP Mainframe Audit Logs                          X
                 Lack of Formal Processes for Managing Remote Access to the
FEMA-IT-10-57                                                                     X
                 LAN Supporting the TRRP Mainframe
FEMA-IT-10-58    Traverse Configuration Management Plan Weaknesses                        X
FEMA-IT-10-59    TRRP Configuration Management Plan Weaknesses                            X
                 Weaknesses Exist over the Implementation of Traverse System
FEMA-IT-10-60                                                                     X
                 Changes
                 Weaknesses Existed over Contingency Planning, Testing and
FEMA-IT-10-61    Development of the Continuity of Operations Plan (COOP) for              X
                 TRRP and Traverse
                 Weaknesses Exist over Configuration Management Processes for
FEMA-IT-10-62    Financial Applications within the previous NEMIS Accreditation           X
                 Boundary
                 Weaknesses Exist over IFMIS-Merger Configuration
FEMA-IT-10-63                                                                             X
                 Management Processes

                 A Configuration Management Plan has not been fully
FLETC-IT-10-01                                                                    X
                 implemented
                 Ineffective Logical Access Controls over the Glynco
FLETC-IT-10-02                                                                    X
                 Administrative Network (GAN)
                 Physical Security and Security Awareness Issues Identified
FLETC-IT-10-03                                                                    X
                 during Enhanced Security Testing
FLETC-IT-10-04   GAN audit logs are not reviewed                                  X

   Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                                  Financial Statement Audit

                                           Page 43

                                                                                      Appendix C
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2011

FLETC-IT-10-05   Weak Access Controls around Momentum                             X
                 Ineffective Logical Access Controls over Student Information
FLETC-IT-10-06                                                                            X
                 System (SIS)

                 Procedures for Transferred/Terminated Personnel Exit
 ICE-IT-10-01                                                                             X
                 Processing are not Followed
 ICE-IT-10-02    Ineffective Password Settings in FFMS                            X
                 Formal Policy for FFMS Access Recertification is not
 ICE-IT-10-03                                                                     X
                 Documented and Approved
 ICE-IT-10-04    Weak FFMS Segregation of Duties                                          X
                 Audit Log Policies and Procedures are not Documented for
 ICE-IT-10-05                                                                     X
                 FFMS
                 Terminated/Transferred Personnel are not Removed from ADEX
 ICE-IT-10-06                                                                             X
                 in a Timely Manner
 ICE-IT-10-07    Weak Environmental Controls at the OCS Datacenter                X
 ICE-IT-10-08    Weak Environmental Controls at the PCN Computer Room             X
 ICE-IT-10-09    Security Awareness Issues Identified during Social Engineering           X
                 Security Awareness Issues Identified during After-Hours
 ICE-IT-10-10                                                                             X
                 Walkthrough
 ICE-IT-10-11    Training for IT security Personnel is not Mandatory.             X
 ICE-IT-10-12    Physical Safeguard Weaknesses exist at DHS DC2 Datacenter        X
                 FFMS Network and Servers were Installed with Default
 ICE-IT-10-13                                                                             X
                 Configuration Settings and Protocols
                 FFMS Mainframe Production Databases were Installed and
 ICE-IT-10-14                                                                             X
                 Configured without Baseline Security Configurations.
 ICE-IT-10-15    FFMS Servers have Inadequate Patch Management                            X
                 Default Installation and Configuration of Cisco Routers on ICE
 ICE-IT-10-16                                                                             X
                 Network

                 DHS has not Fully Implemented the Federal Desktop Core
 OCIO-IT-10-01   Configuration (FDCC) Security Configurations Requirements                X

                 DHS Policies and Procedures Need Clarity                         X
 OCIO-IT-10-02

                 Physical Security and Security Awareness Issues Identified
 TSA-IT-10-01                                                                             X
                 during Enhanced Security Testing
                 Core Accounting System (CAS), Financial Procurement Desktop
 TSA-IT-10-02                                                                             X
                 (FPD), and Sunflower Access Recertifications
 TSA-IT-10-03    TSA Computer Access Agreement Process                                    X
                 Configuration Management Controls Over the Coast Guard
 TSA-IT-10-04                                                                             X
                 Scripting Process




   Information Technology Management Letter for the FY 2011 Department of Homeland Security’s 

                                  Financial Statement Audit

                                           Page 44

                                                                         Appendix D
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2011

                 Report Distribution

                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 General Counsel
                 Chief of Staff
                 Deputy Chief of Staff
                 Executive Secretariat
                 Assistant Secretary for Office of Policy
                 Assistant Secretary for Office of Public Affairs
                 Assistant Secretary for Office of Legislative Affairs
                 Under Secretary, Management
                 Chief Information Officer
                 Chief Financial Officer
                 Chief Information Security Officer
                 Assistant Secretary, Policy
                 DHS GAO OIG Audit Liaison
                 Chief Information Officer, Audit Liaison

                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS OIG Budget Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees, as
                 appropriate




Information Technology Management Letter for the FY 2011 Department of Homeland 

                       Security’s Financial Statement Audit

                                      Page 45

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
